APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the Court of Appeals of the District of
Columbia (June 6, 2019)................................... la
Judgment of the Court of Appeals of the District
of Columbia (June 6, 2019).............................. 12a
Order of the Superior Court of the District of
Columbia (July 7, 2017)................................... 14a
Order of Judgment of the Superior Court of the
District of Columbia (July 7, 2017)................. 22a
Order of the Superior Court of the District of
Columbia Granting Motion for Judgment
(November 9, 2011).......................................... 24a
Judgment of the Superior Court of the District of
Columbia (October 18, 2011)............................ 27a
Judgment of the Superior Court of the District of
Columbia (September 7, 2010)......................... 29a
Judgment of the Superior Court of the District of
Columbia (August 1, 2006)............................... 31a
Judgment of the Superior Court of the District of
Columbia (July 31, 2006)................................. 33a
Rehearing Orders
Order of the District of Columbia Court of Appeals
Denying Petition for Rehearing
(October 28, 2019)..................................... ....... 63a
Other Documents
Joint Pretrial Statement
(June 5, 2017).... .....

35a

APPENDIX TABLE OF CONTENTS (Cont.)
Certificate for the Bid Sale for Alan Wurtele
(August 24, 2004)............................................. 64a
Certificate for the Bid Sale for Kathleen Smith
(August 24, 2004)............................................. 67a
Letter from Tijuana Watson About the
Tax Sale Transaction of the Lots
(April 5, 2017)................................................... 70a
The District of Columbia Department of Consumer
and Regulatory Affairs Letter with Regard to
Square 1230, 0818 and 0822 R3 Zoning
(November 14, 2005)........................................ 71a
Scanned Image from MX
(April 5, 2017)................................................. . 73a
Full Tax Record I
(November 7, 2005).......................................... 75a
Full Tax Record II................................................... 77a
Property Details....................................................... 79a
Notice of Public Hearing
(October 8, 2015).............................................. 83a
Bill for the Public Hearing
(October 8, 2015).............................................. 86a
Testimony for Public Hearing by Kebreab Zere
(October 8, 2015).............................................. 88a
Testimony of Allice Kelly Regarding Bill 21-218,
Lots 804, 814, 818, 820, 822 in Square 1230
Eminent Domain Authorization Act of 2015
(October 8, 2015).............................................. 91a
Kebreab Zere Deeds
(October 8, 2015)............................................ . 95a

APPENDIX TABLE OF CONTENTS (Cont.)
Interrogations, Requests and Responses—
Relevant Excerpts....................................

120a

District of Columbia’s Responses and Objections
to Defendant’s Requests for Production of
Documents...........................................
135a
Subdivision Plat, Building Permit Plat,
Building Address, Water Bill and
Tax Sale Sign Board..........................

139a

Death Certificate I
(March 03, 2017).................................

153a

Death Certificate II
(October 12, 2002)..............................

154a

App.la
OPINION OF THE COURT OF APPEALS
OF THE DISTRICT OF COLUMBIA
(JUNE 6, 2019)
DISTRICT OF COLUMBIA COURT OF APPEALS
KEBREAB ZERE,
Appellant,
v.
DISTRICT OF COLUMBIA,
Appellee.
No. 17-CV-829
Appeal from the Superior Court of the
District of Columbia (CAB-772-16)
(Hon. Brian F. HOLEMAN, Trial Judge)
Before: BLACKBURNE-RIGSBY, Chief Judge,
EASTERLY, Associate Judge, and
NEBEKER, Senior Judge.
BLACKBURNE-RIGSBY, Chief Judge:
Pro se appellant Kebreab Zere appeals the trial
court’s July 7, 2017, order granting appellee District
of Columbia’s motion for summary judgment and
entering a declaratory judgment that the public has a
prescriptive easement to traverse an alley between O
and N Streets, NW, for which he is the property

App.2a

owner. 1 Mr. Zere argues that the trial court erred in
granting summary judgment in favor of the District,
and that the establishment of a prescriptive easement
constitutes a de facto unconstitutional taking of prop­
erty without just compensation. We affirm.
I.
Mr. Zere purchased five of the six lots forming the
alley between the row houses located in the 3200 block
of O Street, NW and the 3200 block of N Street, NW
from tax sales. Mr. Zere acquired title to each of the
lots in separate tax-sale foreclosure actions between
2006 and 2011. Mr. Zere appears to be an experienced
tax-lien purchaser.2 Subsequently, he attempted to
erect a fence to block the alley, and combine the five
lots into one. However, the Historic Preservation
Review Board denied Mr. Zere’s proposed consolidation
of the five lots.
In response to Mr. Zere’s attempt to block the
alley, the District of Columbia filed a complaint for
declaratory judgment and injunctive relief against
1 A prescriptive easement is an interest in land owned by another,
consisting of the right to use or control the land for a specific
limited purpose, that is established by a claimant’s open, notorious,
continuous, and adverse use for the statutory period of fifteen
years. Martin v. Bicknell, 99 A.3d 705, 711-712 (D.C. 2014). We
clarified in Martin that, while the use of a prescriptive easement
must be adverse, unlike an adverse possession claim, a plaintiff
need not show the element of exclusivity to make out a claim of
a prescriptive easement because “servitudes are generally not
exclusive.” Id. at 711, 713-714 (quoting RESTATEMENT (Third) OF
Prop.: Servitudes § 2.17 cmt. g (Am. Law. Int. 2000)).
2 Between 2004 and 2016, Mr. Zere filed twenty tax-sale foreclosure
actions.

App.3a
Mr. Zere to prevent his interference with the public’s
right to traverse the alley. The District subsequently
filed a motion for summary judgment alleging that the
lots owned by Mr. Zere were encumbered by a public
prescriptive easement, and that Mr. Zere took title to
the lots subject to that easement. The District argued
that members of the public had traversed the alley for
many years, that this use was open, notorious, adverse,
and continuous for over fifteen years, from 1980 to
1995, and, thus, a public prescriptive easement had
been established by 1995. The District further asserted
that, although the alley was privately owned, the
District had long recognized its public use, which was
evidenced, in part, by the District of Columbia Depart­
ment of Transportation’s (“DDOT”) maintenance of the
street light in the alley and pavement of the alley in
2003. The District further alleged that the easement
over the alley was perfected by 1995, before Mr. Zere
acquired title, and that the District’s request for
declaratory judgment was not a new acquisition that
would constitute a taking or require compensation.
As part of its motion for summary judgment, the
District filed a statement of undisputed material
facts, pursuant to Super. Ct. Civ. R. 12-I(k), which was
supported by declarations from three individuals who
lived in townhouses abutting the alley—John Queenan,
Gerald Turner, and Mary Carter. Taken together, the
three declarations asserted that, from 1980 to at least
1995, the residents used the alley daily without asking
permission. The declarants also observed members of
the public using the alley on a daily basis for a number
of purposes without asking for permission. Moreover,
the declarants assert that the public’s usage of the

App.4a
alley is visible to anyone who lives adjacent to it, or
who has passed by it in recent years.
Mr. Zere did not file a statement of disputed
material facts pursuant to Rule 12-I(k) in response to
the District’s motion for summary judgment. As a
result, the trial court was entitled to assume that the
facts set forth in the District’s statement of undisputed
material facts were admitted without controversy. See
Jane W. v. President & Dirs. of Georgetown Coll., 863
A.2d 821, 826 (D.C. 2004). In his subsequent opposition
to the summary judgment motion, Mr. Zere made the
following arguments: (l) there were no records main­
tained by DDOT to support a public prescriptive ease­
ment, and DDOT only repaved the alley once in 2003;
(2) the easement does not meet the adversity element
of a prescriptive easement because the trespassing is
permissive; and (3) any prescriptive easement was
extinguished by the tax-sale foreclosure. Mr. Zere
further argued in his opposition that, under the
Takings Clause of the Fifth Amendment, he should be
compensated for the value of the lots.
The trial court granted summary judgment in
favor of the District. The trial court held that there
was no material disputed issue of fact that the public
had traversed the alley openly, notoriously, continuously,
and adversely in excess of the fifteen-year statutory
period to establish a public easement by prescription.
The trial court also held that pursuant to D.C. Code
§ 47-1382(a)(3) (2012 Repl.), the alley was conveyed to
Mr. Zere subject to a public easement observable by
an inspection of the property. The trial court explained
that the alley was “clearly burdened” by the public’s
right to traverse it, and this right was easily observable
to any tax-lien purchaser. This appeal followed.

App.5a

II.
A.

Summary Judgment

We review a trial court’s order granting summary
judgment de novo. Newmyer v. Sidwell Friends, 128
A.3d 1023, 1033 (D.C. 2015). Mr. Zere’s first argument
is legal in nature, in which he claims his tax-sale
purchase of the lots extinguished all unrecorded ease­
ments. To the extent that Mr. Zere is raising a res
judicata defense, we conclude it to be without merit.
D.C. Code § 47-1382(a)(3) provides that tax-sale pur­
chasers take a fee simple interest in property subject to
“[ejasements of record and any other easement that may
be observed by an inspection of the real property.”
(emphasis added). Therefore, the tax sale would not
have extinguished any preexisting easement.3 The que­
stion then becomes whether such an easement existed
and, in particular, whether the trial court could make
this determination on summary judgment.
In determining whether summary judgment was
appropriate, we view the evidence in the light most
favorable to the non-prevailing party and we draw all
reasonable inferences in that party’s favor. Liu v. U.S.
Bank Nat’l Ass’n, 179 A.3d 871, 876 (D.C. 2018).
Summary judgment is appropriate where there is no
genuine issue of material fact and a party is entitled
to a judgment as a matter of law. Id. (citation and
internal quotation marks omitted). Once a party provides
3 Mr. Zere also argues that the District should not have sold him
the lots in a tax-sale if the entire alley was burdened with the
easement and therefore had no value. Regardless of the validity
of this claim, it does not affect the existence of the easement.
Furthermore, Mr. Zere was required to first raise this argument
in a counterclaim with the trial court, and he failed to do so.

App.6a

sufficient evidence to establish its entitlement to
judgment as a matter of law, the burden shifts to the
adverse party to set forth facts placing issues in dispute.
Newmyer, 128 A.3d at 1033. The opposing party
cannot rely solely on denials. See, e.g., Anderson v.
Liberty Lobby, Inc., 447 U.S. 242, 249 (1986) (non­
moving party must provide “sufficient evidence sup­
porting the claimed factual dispute” in order to defeat
a motion for summary judgment) (internal citations
omitted); Newmyer, 128 A.3d at 1033 (“mere ‘conclusory
allegations’ are insufficient to defeat the [summary
judgment] motion”) (internal citations omitted).
“An easement is an interest in land owned by
another person, consisting in a specific limited right
to use or control the land.” Martin, 99 A. 3d at 708
(internal alternations, brackets, and citation omitted).
The elements to establish a prescriptive easement by
the public are the same elements required to establish
a private prescriptive easement, and the burden rests
on the claimant to show by a preponderance of the
evidence that a prescriptive easement was estabhshed.
Hefazi v. Stiglitz, 862 A.2d 901, 910 (D.C. 2004); see
also 25 Am. Jur. 2d Easements and Licenses § 36
(2014). To establish the existence of a prescriptive
easement, a claimant must demonstrate that use of
another’s land was open, notorious and adverse for a
period of at least fifteen years. Martin, 99 A.3d at 711;
see alsoD.C. Code § 12-30l(l) (2012 Repl.) (statute of
limitations for bringing a claim for the recovery of
land is fifteen years). The sole element that Mr. Zere
takes issue with is whether the use was adverse.
Adverse use of land is use executed in a manner
that does not recognize the right of the landowner to
stop it. Chaconas v. Meyers, 465 A.2d 379, 382 (D.C.

App.7a

1983). Adversity may be presumed from proof of open
and continuous use for the statutory period absent
contrary evidence. Id. Permissive use can defeat a claim
of adversity, and can be granted explicitly or implicitly
by the landowner through the interactions between the
parties. See id. at 382-383. However, mere acquiescence
is not permission. Martin, 99 A.3d at 712.
The District’s statement of facts supported each
of the requisite elements of a prescriptive easement.
The declarations of three residents of townhouses
abutting the alley—Queenan, Turner, and Carter—
showed that the public’s use was open, notorious, and
adverse for the fifteen-year statutory period. Mr.
Queenan resided in a townhouse abutting the alley from
1980 until 2016, and stated that during those thirtysix years he used the alley daily and observed his
neighbors and the public use the alley daily. Mr.
Queenan stated that the alley had never been blocked,
aside from a few rare occasions “when the United States
government did so for security reasons.” Mr. Queenan
further stated that he never asked nor observed anyone
else ask for permission to use the alley and that he did
not believe that anyone had a right to stop him from
using the alley.
Mr. Turner and Ms. Carter, who have been residing
in townhouses abutting the alley since 1989 and 1996,
respectively, corroborated Mr. Queenan’s declaration.
Mr. Turner and Ms. Carter both stated that since they
began living in their townhouses they have used the alley
daily and have observed members of the public use the
alley in a multitude of fashions. Mr. Turner and Ms.
Carter stated that they have never asked for permission
to use the alley, nor have they observed anyone else
asking for permission to use the alley, nor did they

App.8a

believe anyone had the right to stop them from using
the alley. Mr. Zere did not file a statement of disputed
material facts pursuant to Super. Ct. Civ. R. 12-I(k),
and therefore, the trial court was entitled to consider
the District’s evidence as undisputed. See Jane W.,
863 A.2d at 826.
Mr. Zere contends that he raised material disputes
of fact in his opposition to the District’s motion for
summary judgment. We disagree that Mr. Zere created
any material disputes within his opposition. Mr. Zere
contends that the declarants lacked credibility because
he was not able to cross-examine the declarants. How­
ever, Mr. Zere’s credibility challenge is misplaced
because, at the summary judgement stage, the trial
court does not assess credibility, and Mr. Zere is not
entitled to cross-examine the affiants. Anderson v. Ford
Motor Co., 682 A.2d 651, 654 (D.C. 1996); see Bortell v.
Eli Lilly & Co., 406 F. Supp. 2d 1, 11 (D.D.C. 2005)
(agreeing with the Seventh Circuit that Rule 56 govern­
ing summary judgment does not have a cross exami­
nation requirement); see also Journal of Commerce, Inc.
v. U.S. Dep’t of Treasury, 1987 WL 4922 at *3 (D.D.C.
Jun. 1,1987) (holding that there is “no automatic entitle­
ment to cross-examination” at the summary judgement
stage because that “would in essence deprive [ ] defend­
ants of their right to move for summary judgment on the
basis of appropriate affidavits.”).4

4 Mr. Zere also argues that the declarations were in violation of
the Dead Man’s Statute, D.C. Code § 14-302(a) (2012 Repl.), but
this statute does not apply. The Dead Man’s Statute is intended
to protect a deceased party from being fraudulently held liable in
a legal action where the only evidence of liability is the claimant’s
own assertion that the deceased was obligated to him in some

App.9a

Mr. Zere contends that the District did not establish
adversity because there is a dispute as to whether the
public’s use of the alley was merely permissive. He
claims that none of the declarants showed they ever
made a claim of right on the lots, nor did they maintain
the lots, or interfere with the use of the lots by the
owner. However, other than denials, Mr. Zere presents
no evidence to place this issue in dispute. See Beard v.
Goodyear Tire & Rubber Co., 587 A.2d 195,198-99 (D.C.
1991). Mr. Zere’s argument thus fails to refute the
District’s prima facie showing of adverse, open, and
continuous public use of the alley. See Smith v.
Tippett, 569 A.2d 1186,1190 (D.C. 1990) (“possession
is adverse whenever there is open and continuous use
of another’s land for the statutory period, and this
presumption is effective to establish title in the
absence of evidence to the contrary.”).
Mr. Zere also claims that there is not a public
prescriptive easement because the testimony of a
DDOT representative at a public hearing on a bill to
condemn the lots demonstrates that the agency did not
recognize, or maintain, the alley as a public alley. Mr.
Zere asserts that this notion is supported by the absence
of any public record of the easement, the introduction
of a bill to condemn the lots and transfer ownership to
the District, and the District’s collection of taxes. Addi­
tionally, Mr. Zere argues that it was a contradiction for
the Council to hold an eminent domain hearing on the
property at issue in 2015, when the District now
claims a prescriptive easement was created in 1995.
None of these assertions, however, defeat the creation
of a public easement. The burden of establishing a
fashion. See Gray v. Gray, 412 A.2d 1208, 1212 (D.C. 1980). This
is not the case here.

App.lOa
prescriptive easement does not require public knowledge
or acknowledgment, but only a demonstration of open,
notorious, continuous and adverse use for the statutory
period. See Martin, 99 A.3d at 711. “[A] use is open
and notorious if knowledge of it is had by those who
are or may be affected by it even though the use is not
a matter of common knowledge in the community.”
Restatement (First) of Prop. § 458 cmt. h (Am. Law
INST. 1944) (emphasis added). The undisputed evidence
shows that the property owners abutting the alley
used the alley and did not ask permission. Therefore,
summary judgment was properly granted in favor of
the District on the issue of whether a prescriptive
easement had been established.
B.

Takings Claim

Mr. Zere alternatively argues that, assuming a
public easement existed, the District should compensate
him for the fair market value of the lots, under the
Takings Clause of the Fifth Amendment. Mr. Zere did
not raise this as a compulsory counterclaim in his
answer to the complaint, see Super. Ct. Civ. R. 13 (a),
but rather, first raised it in a motion to dismiss before
the trial court. The trial court, in its order denying his
motion to dismiss, alerted Mr. Zere that this argument
was improperly presented in his motion.5 Mr. Zere,
nevertheless, did not raise this compulsory counterclaim.
Therefore, he forfeited this claim.

5 In the order denying Mr. Zere’s motion, the trial court explained
that such a claim was not a valid ground for dismissal, nor was
it properly presented in a motion to dismiss.

App.lla
III.
Accordingly, the judgment on appeal is affirmed.
So Ordered.

App.l2a
JUDGMENT OF THE COURT OF APPEALS
OF THE DISTRICT OF COLUMBIA
(JUNE 6, 2019)
DISTRICT OF COLUMBIA COURT OF APPEALS
KEBREAB ZERE,
Appellant,
v.
DISTRICT OF COLUMBIA,
Appellee.
No. 17-CV-829
On Appeal from the Superior Court of the
District of Columbia Civil Division
CAB-772-16
Before: BLACKBURNE-RIGSBY, Chief Judge,
EASTERLY, Associate Judge, and
NEBEKER, Senior Judge.
This case was submitted to the court on the tran­
script of record, the briefs filed, and without presenta­
tion of oral argument. On consideration whereof, and
for the reasons set forth in the opinion filed this date,
it is now hereby
ORDERED and ADJUDGED that the judgment
on appeal is affirmed.

App.l3a
For the Court:
/s/ Julio A. Castillo
Clerk of the Court
Dated: June 6, 2019
Opinion by Chief Judge Anna Blackburne-Rigsby

App.l4a
ORDER OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
(JULY 7, 2017)
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION
DISTRICT OF COLUMBIA,
Plaintiff,
v.
KEBREAB ZERE,
Defendant.
Case No. 2016 CA 772 B
Calendar 12
Before: Brian F. HOLEMAN, Judge.
This matter comes before the Court upon consid­
eration of Plaintiffs Motion for Summary Judgment,
filed on October 14, 2016, On October 25, 2016, Defend­
ant filed his Opposition. On May 30, 2017, Plaintiff
filed its Replay to Defendant’s Opposition to Its Motion
for Summary Judgment.
I.

Factual Background

Plaintiff seeks a judicial declaration of the public’s
prescriptive easement to a privately-owned alley located
between two rows of houses on O Street, NW and N

App.l5a
Street, NW in the District of Columbia (the “Alley”).
(Compl. at 1, 4.) Plaintiff alleges that “[m] embers of the
public have traversed the Alley by foot, by bicycle, and
by car for many years, and have thereby established an
easement by prescription to do so.” (Id. at 2.) Defendant
is currently the owner of five of the tax lots that make
up the Alley: Lots 804, 814, 818, 820, 822. (Id. at 1.)
Defendant obtained title to the five lots through taxdeeds issued pursuant to the District of Columbia’s
tax-sale foreclosure statute. (Id. at 2.)
II. Pertinent Procedural History
On February 1,2016, Plaintiff filed the Complaint.
On March 2,2016, Defendant filed the Motion to Dismiss
Plaintiffs Complaint for Declaratory Judgment. On
March 16, 2016, Plaintiff filed the Memorandum of
Opposing Points and Authorities in Opposition to
Defendant’s Motion to Dismiss. On April 8, 2016,
Defendant filed the Motion to Dismiss Plaintiffs
Memorandum of Points and Authorities. On April 21,
2016, the Court issued the Omnibus Order that, inter
alia, denied Defendant’s Motion to Dismiss Plaintiffs
Complaint and denied as moot Defendant’s Motion to
Dismiss Plaintiffs Memorandum of Points and Author­
ities. On May 20, 2016, the Court held an initial
scheduling conference and issued the Initial Scheduling
Order. On June 10, 2016, Defendant filed the Answer
to the Complaint. On June 14, 2017, the parties filed
the Pretrial Statement.

App.l6a
HI. Analysis
A. The Applicable Standard
Under the District of Columbia Superior Court
Rules of Civil Procedure, Rule 56(a), the Court shall
grant summary judgment “if the movant shows that
there is no genuine dispute as to any material fact and
that the movant is entitled to judgment as a matter of
law.” To prevail on a motion for summary judgment, the
moving party must demonstrate, based on the pleadings,
discovery responses, and any affidavits submitted, that
there is no genuine issue as to any material fact and
that it is thus entitled to judgment as a matter of law.
Grant v. May Department Stores Co., 786 A.2d 580, 583
(D.C. 2001). A trial court considering a motion for
summary judgment must view the pleadings, discovery
materials, and affidavits in the light most favorable to
the non-moving party and may grant the motion only if
a reasonable finder of fact, having drawn all reasonable
inferences in favor of the non-moving party, could not
find for the non-moving party based on the evidence
in the record. Grant, 786 A.2d at 583 (internal citations
omitted).
The moving party has the initial burden of proving
that there is no genuine issue of material fact in dispute.
If the moving party carries its initial burden, then the
non-moving party assumes the burden of establishing
that there is a genuine issue of material fact in dispute.
Id. at 593. Any presentation of a genuine issue of mate­
rial fact must conform with the requirements set forth
in Rule 56(b) and (c), which state in pertinent part:
(b) TIME TO FILE A MOTION; FORMAT.
(l) Time to File. Unless the court orders

App.l7a
otherwise, a party may file a motion for sum­
mary judgment at any time until 30 days
after the close of all discovery. (2) Format:
Parties’ Statement of Fact. (A) Movant’s
Statement. In addition to the points and
authorities required by Rule 12-1 (d)(2), the
movant must file a statement of the material
facts that the movant contends are not
genuinely disputed. Each material fact must
be stated in a separate numbered paragraph.
(B) Opponent’s Statement. A party opposing
the motion must file a statement of the
material facts that the opponent contends
are genuinely disputed. The disputed material
facts must be stated in separate numbered
paragraphs that correspond to the extent
possible with the numbering of the paragraphs
in the movant’s statement.
(c) PROCEDURES, (l) Supporting Factual
Positions. A party asserting that a fact cannot
be or is genuinely disputed must support the
assertion by: (A) citing to particular parts of
materials in the record, including depositions,
documents, electronically stored information,
affidavits or declarations, stipulations (includ­
ing those made for purpose of the motion only),
admissions, interrogatory answers, or other
materials; or (B) showing that the materials
cited do not establish the absence or presence
of a genuine dispute, or that an adverse party
cannot produce admissible evidence to support
the fact. (2) Objection That a Fact Is Not
Supported by Admissible Evidence. A party
may object that the material cited to support

App.l8a

or dispute a fact cannot be presented in a
form that would be admissible in evidence.
(3) Materials Not Cited. The court need
consider only the cited materials, but it may
consider other materials in the record. (4)
Affidavits or Declarations. An affidavit or dec­
laration used to support or oppose a motion
must be made on personal knowledge, set out
facts that would be admissible in evidence,
and show that the affiant or declarant is
competent to testify on the matters stated.
B. Plaintiffs Entitlement to Summary Judgment
An easement is “‘[a]n interest in land owned by
another person consisting in the right to use or control
the land . . . for a specific limited purpose.”’ Martin v.
Bicknell, 99 A.3d 705, 708 (D.C. 2014) (citation omitted).
A claimant seeking to obtain a prescriptive easement
must demonstrate “open, notorious, exclusive, continu­
ous, and adverse use for the statutory period of fifteen
years.” Id. at 711. The burden of establishing a prescrip­
tive easement claim rests on the claimant and must be
established “by a preponderance of the evidence.” Hefazi
v. Stiglitz, 862 A.2d 901, 910 (D.C. 2004).
The pleadings and Plaintiffs affidavits demon­
strate, by a preponderance of the evidence, that the
public has traversed the Alley openly, notoriously,
continuously, and adversely for over the statutory
period of fifteen years. (Ex.S, Ex.T, Ex.U of Mot. for
Summary J.) Pursuant to Super. Ct. Civ. R. 8(b),
Defendant was required to answer Plaintiffs Complaint
by making specific denials of designated averments or he

App.l9a

could generally deny all the averments.l Further,
“[a]n allegation—other than one relating to the amount
of damages—is admitted if a responsive pleading is
required and the allegation is not denied.” Id. Defendant
did not generally deny all of the averments, and the only
element of Plaintiffs public prescriptive easement
claim that Defendant denied was Plaintiffs claim of
adversity.2 (Pf s Rule 12-1 (k) Statement of Undisputed
Material Facts in Supp. of Its Mot. for Summary J. at
4; Answer to Compl. for Declaratory J. at 3.)
For prescriptive easements, there is a presumption
that possession is adverse “whenever there is open
and continuous use of another’s land for the statutory
period ... in the absence of evidence to the contrary.”
1 DEFENSES; ADMISSIONS AND DENIALS, (l) In General. In
responding to a pleading, a party must: (A) state in short and
plain terms its defenses to each claim asserted against it; and (B)
admit or deny the allegations asserted against it by an opposing
party. (2) Denials—Responding to the Substance. A denial must
fairly respond to the substance of the allegation. (3) General and
Specific Denials. A party that intends in good faith to deny all
the allegations of a pleading—including the jurisdictional grounds—
may do so by a general denial. A party that does not intend to
deny all the allegations must either specifically deny designated
allegations or generally deny all except those specifically
admitted. (4) Denying Part of an Allegation. A party that intends
in good faith to deny only part of an allegation must admit the
part that is true and deny the rest. (5) Lacking Knowledge or
Information. A party that lacks knowledge or information
sufficient to form a belief about the truth of an allegation must
so state, and the statement has the effect of a denial. (6) Effect of
Failing to Deny. An allegation—other than one relating to the
amount of damages—is admitted if a responsive pleading is
required and the allegation is not denied. If a responsive pleading
is not required, an allegation is considered denied or avoided.
2 “The trespassing is permissive. There is no adversity.”

App.20a

Smith v. Tippett, 569 A.2d 1186,1190 (D.C. 1989). A use
is considered to be adverse “if [it is] not accompanied
by any recognition, in express terms or by implication,
of a right in the landowner to stop such use now or at
some time in the future.” Chaconas v. Myers, 465 A.2d
379, 382 (D.C. 1983); Hefazi v. Stiglitz, 862 A.2d 901,
910-11 (D.C. 2004). Permissive use defeats a claim of
adversity, but “[m]ere acquiescence is not permission.”
Martin v. Bicknell, 99 A.3d 705, 707 (D.C. 2014).
Defendant has claimed that the use of the Alley
was permissive, but this claim is contradicted by three
witnesses who have lived on the Alley and state that
they have never witnessed a member of the public ask
permission to use the Alley. (Ex.S, Ex.T, Ex.U of Mot.
for Summary J.) Defendant has no witnesses who can
testify that the public’s use was not adverse. The
parties’ exchange of lists of fact witnesses was due on
July 19, 2016. Defendant failed to file a list of fact
witnesses.
Under District of Columbia Code § 47-1382(a) (3),
a fee simple interest conveyed via tax sale is subject
to “[elasements of record and any other easement that
may be observed by an inspection of the real property [.]”
The Alley was clearly burdened by the public’s right
to traverse the Alley by foot, bicycle, and vehicles,
which was easily observable to any tax-lien purchaser.
As part of each of his tax-sale foreclosure actions,
Defendant was required to post notice of the action on
the real property subject to the action, D.C. Code § 471372(f)3 Defendant filed an affidavit with the Court,

3 In addition to the notice required by subsection (a) of this
section, the plaintiff shall provide notice of the action by posting

App.21a

attaching pictures of the postings in the Alley. (Ex. V.
of Mot. for Summary J.) The picture show parked cars,
garages, and trash that was to be collected by the
District. (Id.) Consequently, the easement “may be
observed by an inspection of the real propertyU” (Also
(See P’s Ex. B at 4-5 (photograph of the Alley indicating
a parked car and suggesting that the Alley is wide
enough to support automobile traffic).); D.C. Code
§ 47-1382(a)(3).
IV. Conclusion
Defendant has failed to establish a genuine issue
as to any material fact required for establishing a
prescriptive easement. Plaintiff is entitled to judgment
as a matter of law.
WHEREFORE, it is this 7th day of July 2017,
hereby
ORDERED, that Plaintiffs Motion for Summary
Judgment is GRANTED; and it is further
ORDERED, that JUDGMENT IS ENTERED in
favor of Plaintiff in accord with the Order of Judgment
issued concurrently herewith; and it is further
ORDERED, that the Pretrial Conference currently
scheduled for July 10, 2017 is VACATED.
/s/ Brian F. Holeman
Judge

a copy of the summons on a place on the premises of the real
property where it may be conveniently read.

App.22a
ORDER OF JUDGMENT OF THE SUPERIOR
COURT OF THE DISTRICT OF COLUMBIA
(JULY 7, 2017)
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION
DISTRICT OF COLUMBIA,
Plaintiff,
v.
KEBREAB ZERE,
Defendant.
Case No. 2016 CA 772 B
Calendar 12
Before: Brian F. HOLEMAN, Judge.
In accord with the Order of this Court dated July
7, 2017, it is on this 7th day of July 2017, hereby
ORDERED, that Judgment is entered in favor of
Plaintiff District of Columbia and against Defendant
Kebreab Zere; and it is further
ORDERED, that a certified copy of this Order
shall be recorded in the Office of the Recorder of Deeds
for the District of Columbia as a judgment.
ORDERED, that Plaintiff is entitled to a declaratory
judgment that the general public has a prescriptive

App.23a

easement to walk and traverse by foot or by vehicle
the entire length of the alley located at the tax lots
804, 814, 818, 820, 822 in Square 1230 (the “Alley”),
and that the width of the easement is 20’ so that two
vehicles, including trucks, may pass each other in the
Alley; and it is further
ORDERED, that Defendant is permanently
enjoined from obstructing or blocking the Alley in any
way that interferes with the public’s prescriptive
easement or interfering with the public’s prescriptive
easement in any other way.
/s/ Brian F. Holeman
Judge

App.24a
ORDER OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
GRANTING MOTION FOR JUDGMENT
(NOVEMBER 9, 2011)
IN THE SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA CIVIL DIVISION
KEBREAB ZERE
Plaintiff,
v.
PERSONAL REPRESENTATIVE OF THE
ESTATE OF KATHLEEN K. SMITH, ET AL.,
Defendants.
Civil Action No. 2008 CA 004873
Before: J. E. BESHOURI, Magistrate Judge.
This matter comes before the court on Plaintiffs
“Motion for Default Judgment as to Defendants Mellon
National Association, Roderick S. Smith (Heir and CoExecutor), Richard A. Smith, Jr. (Heir and Co-Executor),
J. Leighton Cornwell, Ella Cornwell Chisholm, and
Aleen Cornwell, and their Unknown Heirs, Devisees,
Personal Representatives, Executors, Administrators,
Grantees, Assigns or Successors in Right, Title and
Interest, and for Summary Judgment as to Defendant
District of Columbia” (“Motion”), filed July 13, 2011.

App.25a

Having considered Plaintiffs Motion and the entire
record herein, the Motion is GRANTED.
Plaintiff—the purchaser of a tax sale certificate
on a parcel of property located at Square 1230-Lot
0820, which may also be known as a vacant lot in an alley
running between the 1300 blocks of 33rd and Potomac
Streets NW, Washington, D.C.—filed this action to
foreclose the rights of redemption on the property.
The record definitively establishes that Plaintiff
has complied with the statutory requirements of Title
47, Chapter 13A of the D.C. Code and all relevant
procedural Rules, and has been duly diligent in attempt­
ing to locate and join record and legal owners and other
persons with interest in the property, none of whom
have redeemed the property.
Wherefore, it is this 9th day of November, 2011,
hereby
ORDERED that Plaintiffs Motion for default
judgment and summary judgment is GRANTED; and
it is further
ORDERED that the Mayor of the District of
Columbia is directed to issue to the Plaintiff, within
ten days of the entry of this Order, a statement detailing
the amounts required for the Plaintiff to receive a
deed under D.C. Code § 47-1382 (c), provided that any
surplus paid for the real property by the Plaintiff be
applied against all other taxes, interest thereon, and
expenses owing on the real property, in accordance
with D.C. Code § 47-1382 (g); and it is further
ORDERED that the Mayor of the District of
Columbia is hereby directed to execute and deliver a
deed (“the deed”) to Plaintiff, in fee simple, upon

App.26a

Plaintiffs payment to the Mayor of the amount required
under D.C. Code § 47-1382 (c) and Plaintiffs present­
ment to the Mayor of a certified copy of this Order. The
deed shall be subject to: (a) a lien filed by the taxing
agency under D.C. Code § 47-1340 (c); (b) the tenancy of
a residential tenant, other than a tenant described in
D.C. Code § 47-1371 (b)(1)(C) and (D); and (c) easements
of record and any other easement that may be observed
by inspection of the property; and it is further
ORDERED that, once issued, the deed shall vest
in Plaintiff fee simple title to the property, free and
clear from all claims, estate, or rights of Defendants,
or any person claiming through Defendants; and it is
further
ORDERED that this constitutes a final Order in
this case.

/s/ J.E. Beshouri
Magistrate Judge
(Signed in chambers)

App.27a
JUDGMENT OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
(OCTOBER 18, 2011)
IN THE SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION
KEBREAB ZERE,
Plaintiff.’
v.
PERSONAL REPRESENTATIVE OF THE
ESTATE OF KATHLEEN K. SMITH, ET AL.,
Defendants.
Civil Action No. 2008 CA 004865
Before: J. E. BESHOURI, Magistrate Judge.
Plaintiff—the purchaser of a tax sale certificate on
a parcel of property located at Square 1230-Lot 0804,
which may also be known as a vacant lot in an alley
running between the 1300 blocks of 33rd and Potomac
Streets NW, Washington, D.C.—filed this action to
foreclose the right of redemption to the subject parcel.
This court granted Plaintiffs Motion for Default
Judgment as to Defendants Mellon National Association,
Roderick S. Smith (Heir and Co-Executor), Richard A.
Smith, Jr. (Heir and Co-Executor), David L. Shoemaker
and Carl T. Shoemaker, and their Unknown Heirs,

App.28a

Devisees, Personal Representatives, Executors, Admin­
istrators, Grantees, Assigns or Successors in Right,
Title and Interest, and for Summary Judgment as to
Defendant District of Columbia, filed July 19, 2011.
Accordingly, the rights, title, claims, liens, or interests
of the Defendants named in this matter, subject to the
exceptions noted in Chapter 13A of Title 47 of the D.C.
Code, are hereby extinguished. Plaintiff is hereby
vested with title in fee simple, free and clear of any
and all rights of Defendants, subject to the requirements
of D.C. Code § 47-1382. The Mayor of the District of
Columbia is directed to execute and deliver a deed to
the Plaintiff in accordance with D.C. Code § 47-1382.
It is so ORDERED, this 18th day of October,
2011.
/s/ J.E. Beshouri
Magistrate Judge
(Signed in chambers)

App.29a
JUDGMENT OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
(SEPTEMBER 7, 2010)
IN THE SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION
KEBREAB ZERE,
Plaintiff,
v.

ESTATE OF KATHLEEN KNOX SMITH, ET AL.,
Defendants.
Civil Action No. 2008 CA 004875L(RP)
Before: Joseph E. BESHOURI, Magistrate Judge.
Plaintiff, purchaser of a tax sale certificate on a
parcel of property known for tax assessment purposes
as Lot 0814 in Square 1230, more commonly known as
a vacant lot in an alley running between the 1300
Blocks of 33rd and Potomac Street, NW, Washington,
D.C., filed this action to foreclose the right of redemption
to the subject parcel. This Court granted the Plaintiffs
Motion for Default Judgment and Summary Judgment
as to the District of Columbia. Accordingly, the rights,
title, claims, liens, or interests of the Defendants named
in this matter, subject to the exceptions noted in
Chapter 13A of Title 47 of the D.C. Code, are hereby
extinguished. Plaintiff is vested with title in fee simple,

App.30a

subject to the requirements of D.C. Code § 47-1382.
The Mayor of the District of Columbia is directed to
execute and deliver a deed to the Plaintiff in accordance
with D.C. Code § 47-1382.
It is so ORDERED, this 7th day of September,
2010.

/s/ Joseph E. Beshouri
Magistrate Judge
(Signed in chambers)

App.31a

JUDGMENT OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
(AUGUST 1, 2006)
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION

KEBREAB ZERE,
Plaintiff,
v.
EDITH ALLEN CLARK, ET AL.,
Defendants.
Civil Action No. 05ca774(RP)
Calendar No. 18
Before: Evelyn COBURN, Judge.
Plaintiff filed an action to foreclose the right of
redemption to real property described for tax assessment
purposes as Lot 0822 in Square 1230, which may also be
known as a Vacant Lot on 33rd Street, NW, Washington,
D.C. (hereinafter “the Property’). The legal description
of the Property is as follows:
Parts of King Acres and Lot numbered 102
in Square numbered 1230 as follows:
BEGINNING at a point at the end of the
following two courses and distances: (l) Begin­
ning for the same at the point on the South

App.32a
westerly corner of said Square at the inter­
section of the North line of N Street and the
East line of 33rd Street and running Easterly
28.62 feet to a point on the North line of N
Street (2) thence running Northerly along
the West line of Lot numbered 821 in said
Square, 128 feet to the point of beginning;
thence North 22 feet; thence East 28.62 feet
to the point of beginning.
NOTE: At the date hereof the above described
land is known for assessment and taxation
purposes as Lot 822 in Square 1230.
This Court granted Plaintiff s Motion for Default
Judgment against Defendants Edith Allen Clark and
Allan R. Wurtele, and Motion for Summary Judgment
as to Defendant the District of Columbia. Accordingly,
any and all Defendants who have or claim to have any
right, title, claim, lien or interest in the property are
hereby extinguished. Plaintiff is hereby vested in good
and perfect title in fee simple, free and clear of any
and all rights of Defendants. This Order constitutes a
final judgment.
IT IS SO ORDERED, this 1st, day of August, 2006.
Is/ Evelyn Coburn
Judge

App.33a
JUDGMENT OF THE SUPERIOR COURT
OF THE DISTRICT OF COLUMBIA
(JULY 31, 2006)
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA, CIVIL DIVISION
KEBREAB ZERE,
Plaintiff’
v.

KATHLEEN KNOX SMITH, ET AL.,
Defendants.
Civil Action No. 05ca776(RP)
Calendar No. 18
Before: Evelyn COBURN, Judge.
Plaintiff filed an action to foreclose the right of
redemption to real property described for tax assessment
purposes as Lot 0818 in Square 1230, which may also be
known as a Vacant Lot on 33rd Street, NW, Washington,
D.C. (hereinafter “the Property”). The legal description
of the Property is as follows:
Parts of King Acres and Lot numbered 102
in Square numbered 1230 as follows:
NOTE: At the date hereof the above described
land is known for assessment and taxation
purposes as Lot 818 in Square 1230.

App.34a
This Court granted Plaintiffs Motion for Default
Judgment against Defendant Kathleen Knox Smith,
and Motion for Summary Judgment as to Defendant the
District of Columbia. Accordingly, any and all Defend­
ants who have or claim to have any right, title, claim, lien
or interest in the property are hereby extinguished.
Plaintiff is hereby vested in good and perfect title in
fee simple, free and clear of any and all rights of
Defendants. This Order constitutes a final judgment.
IT IS SO ORDERED, this 31st, day of July, 2006.
/s/ Evelyn Coburn
Judge

App.63a
ORDER OF THE DISTRICT OF COLUMBIA
COURT OF APPEALS DENYING
PETITION FOR REHEARING
(OCTOBER 28, 2019)
DISTRICT OF COLUMBIA COURT OF APPEALS
KEBREAB ZERE,
Appellant,
v.
DISTRICT OF COLUMBIA,
Appellee.
No. 17-CV-829
(CAB-772-16)
Before: BLACKBURNE-RIGSBY,* Chief Judge;
GLICKMAN, FISHER, THOMPSON, BECKWITH,
EASTERLY,* and MCLEESE, Associate Judges;
NEBEKER,* Senior Judge.
On consideration of appellant’s petition for rehear­
ing or rehearing en banc, it is
ORDERED by the merits division* that the petition
for rehearing is denied; and it appearing that no judge
of this court has called for a vote on the petition for
rehearing en banc, it is
FURTHER ORDERED that the petition for rehear­
ing en banc is denied.

Additional material
from this filing is
available in the
Clerk's Office.

